No. 20-5278
INTHE
SUPREME COURT OF THE UNITED STATES

MELVIN WHITEHEAD,
Petitioner,
v.

UNITED STATES OF AMERICA,
Respondent.

PROOF OF SERVICE

~~~~~~~~~I, Peggy Sasso, do swear or declare that on this date, December 14, 2020, as
required by Supreme Court Rule 29 I have served the enclosed PETITIONER'S
REPLY BRIEF on each party to the above proceeding or that party's counsel, and
on every other person required to be served, by depositing an envelope containing
the above documents in the United States mail properly addressed to each of them
and with first-class postage prepaid, or by delivery to a third-party commercial
carrier for delivery within 3 calendar days.
The names and addresses of those served are as follows:
Solicitor General of the United States
Room 5616
Department of Justice
950 Pennsylvania Avenue, N.W.
Washington, D.C. 20530-0001
SupremeCtBriefs@usdoj .gov
(202) 514-2217

Quinn Hochhalter
Assistant U.S. Attorney
501 I Street, Suite 10-100
Sacramento, CA 95814
(916) 554-2700

